                      CLOSEOUT FOR M95080035
     This case came to OIG on August 22, 1995, when Dr.
of NSF1s Office of Polar Programs in the Office of the Director
sent us an electronic mail message he had received from
                (the complainant), the South
        responsible for NSF funded research at                 The
complainant was concerned about the treatment of human subjects
under NSF award            1,entitled
                                                               The
PI,                                                University (the
subject), had given a colloquium at the University of        . The
colloquium was attended by Mr.                , a reporter for the
                               .
                 (the newspaper) The newspaper published an
    1995 article written by the reporter about the subject's
research.    The complainant alleged that the newspaper article
indicated that the subject had divulged confidential information
about the people he studied under his award to the reporter.
     OIG examined the newspaper article. Nothing in the article
indicated that the subject revealed the names of any research
subjects without permission, nor was the subject alleged to have
done so.    The article reported anecdotes involving anonymous
individuals to illustrate certain scientific findings. Publishing
anonymous anecdotes such as these is common in the subject's
discipline.    OIG concluded that, although persons intimately         ,
familiar with the setting that the subject studied might guess the
identities of individuals about whom the subject recounted
anecdotes, the subject had taken the commonly accepted precautions
to preserve the anonymity of the people he studied.
     OIG also examined the subject's proposal to NSF. OIG noted
that the institutional review board for the protection of human
subjects at the subject's institution had reviewed the subject's
proposal and concluded that the subject's research posed "no more
than minimal riskf1to the people the subject planned to study. The
subject proposed no unusual precautions to protect the anonymity of
the people he studied, and neither his institution nor NSF insisted
on any. OIG also noted that none of the scientists who reviewed
the subjectls proposal questioned the adequacy of the subject s
procedures for protecting the anonymity of the people he planned to.
study. No unanticipated developments took place that should have
prompted the subject to take steps to protect human subjects beyond
those that he proposed to NSF. OIG concluded that, under these
circumstances, the subject could not be considered to have
                           page 1 of 2                      M95-35
                          CLOSEOUT FOR 2495080035
i
    committed misconduct for failing to take unusual precautions to
    protect anonymity.
          OIG asked the complainant if he had evidence that the subject
     made promises of confidentiality or anonymity that he then breached
    &whenhe made his colloquium presentation. The complainant told OIG
     that he himself had not been made such promises. Despite OIG1s
     repeated requests, the complainant did not supply OIG with the
     names of other people to whom the subject allegedly made and broke
     promises of confidentiality. OIG concluded that there was no
     evidence that the subject's conduct seriously deviated from
     accepted practices for protecting either the anonymity of research
     subjects or the confidentiality of information that they supplied.
         One purpose of the subject's research was to study
    relationships among the small group of people in the subject's
    research setting.     The subject therefore sought data from
    respondents about their relationships with their coworkers and
    distributed a questionnaire to elicit these data. The complainant
    alleged that the subject, by naming the complainant in the
    questionnaire, made the complainant a subject of research without
    the complainantlsconsent. OIG determined that the subject had a
    legitimate research purpose in using the complainant's name and did
    not divulge any confidential information in doing so. Under these
    circumstances, we concluded that failing to obtain consent from the
    complainant could not be considered misconduct in science.
         Balancing the privacy interests of research subjects against
    the scientific communitylsinterest in open reporting of scientific
    findings is an enduring dilemma in behavioral science research. In
    the wake of the incident that gave rise to OIG1s inquiry, NSF
    program managers discussed with OIG possible steps they might take
    to ease the tension between these two interests in the research
    setting where the subject does his work. OIG emphasized that how
    NSF repaired any damage this incident had caused and achieved an
    appropriate balance between these interests in the future were
    program management issues that would not ordinarily involve OIG,
         This'inquiry is closed and no further action will be taken on
    this case.


    cc: Deputy ~ssistantInspector General, Oversight; AIGO; IG




                                page 2 of 2
